No.
_____________________________________

IN THE SUPREME COURT OF
THE UNITED STATES
_____________________________________

HENRIETA PISZTORA, MARY ALICE STURM
AND STEPHEN W. STURM, husband and wife,
GREGORY J. WALSH AND MARIANNE B.
WALSH, husband and wife,
Petitioners,
vs.
CITY OF PITTSBURGH and BETH CRONIN,
Respondents.
_____________________________________
On Petition For Writ Of Certiorari To The
Commonwealth Court Of Pennsylvania
_____________________________________
APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
_____________________________________
DEBORAH R. ERBSTEIN, ESQUIRE
derbstein@gkgattorneys.com
Counsel of Record
DAVID A. WOLF, ESQUIRE
davidw@gkgattorneys.com
GOLDBERG, KAMIN & GARVIN, LLP
1806 FRICK BUILDING
PITTSBURGH, PA 15219
(412) 281-1119

OPINION OF PENNSYLVANIA COMMONWEALTH
COURT, 5TH JUDICIAL DISTRICT (11/1/2019).............. A1
MEMORANDUM OPINION BY
JUDGE FIZZANO CANNON ........................ A2
DISSENTING OPINION BY
JUDGE COHN JUBELIRER ...................... A32
OPINION OF THE COMMON PLEAS
COURT (6/6/2017) ...................................................A37
ORDER OF THE COMMON PLEAS
COURT (6/7/2017) ...................................................A44
ORDER OF PENNSYLVANIA SUPREME COURT
DENYING REHEARING (4/14/2020) ................. A45

A1

2019 WL 5681556
THIS IS AN UNREPORTED PANEL DECISION
OF THE COMMONWEALTH COURT. AS SUCH,
IT MAY BE CITED FOR ITS PERSUASIVE
VALUE, BUT NOT AS BINDING PRECEDENT.
SEE SECTION 414 OF THE COMMONWEALTH
COURT’S INTERNAL OPERATING
PROCEDURES.
OPINION NOT REPORTED
Commonwealth Court of Pennsylvania.
IN RE: CITY OF PITTSBURGH TREASURER’S
SALE OF PROPERTIES FOR DELINQUENT
TAXES – OCTOBER 25, 2013
Henrieta Pisztora, Mary Alice Sturm and
Stephen W. Sturm, husband and wife, Gregory J.
Walsh and Marianne B. Walsh
v.
City of Pittsburgh and Beth Cronin
Appeal of: Henrieta Pisztora, Mary Alice Sturm,
Stephen W. Sturm, Gregory J. Walsh and
Marianne B. Walsh
No. 897 C.D. 2017
|
Argued: May 8, 2019
|
Filed: November 1, 2019
BEFORE:
HONORABLE
MARY
HANNAH
LEAVITT, President Judge, HONORABLE RENÉE
COHN
JUBELIRER,
Judge,
HONORABLE

A2

ROBERT SIMPSON, Judge, 1 HONORABLE
PATRICIA
A.
McCULLOUGH,
Judge,
HONORABLE
ANNE
E.
COVEY,
Judge,
HONORABLE MICHAEL H. WOJCIK, Judge,
HONORABLE CHRISTINE FIZZANO CANNON,
Judge
Opinion
MEMORANDUM OPINION BY JUDGE FIZZANO
CANNON
*1 Henrieta Pisztora, Mary Alice Sturm, Stephen W.
Sturm, Gregory J. Walsh, and Marianne B. Walsh
(collectively, Appellants) appeal from a June 7, 2017
order of the Court of Common Pleas of Allegheny
County (trial court) dismissing Appellants’ case. To
the extent the trial court dismissed Appellants’ case
as untimely, we affirm.
This case involves a treasurer’s sale, in which the
City of Pittsburgh (City), pursuant to the Second
Class City Treasurer’s Sale and Collection Act 2
(Treasurer’s Sale Act), sold a private street and
private alleyway that had been laid out in a plan of
lots to Beth Cronin (Cronin) due to unpaid real
estate taxes. 3 The facts of this case are largely
This matter was assigned to this panel before September 1,
2019, when Judge Simpson assumed the status of senior judge.

1

2

Act of October 11, 1984, P.L. 876, 53 P.S. §§ 27101-27605.

At some point prior to 1980, the private street and the private
alleyway were assigned Allegheny County Block and Lot No.
54-R-92. City’s Motion to Dismiss ¶ 5, Reproduced Record
(R.R.) at 1287a; Appellants’ Brief in Support of Motion for
Summary Judgment (MSJ) at 6, R.R. at 1168a. It appears that

3

A3

drawn from the Stipulation of Facts entered into by
the parties, except where otherwise indicated. See
Reproduced Record (R.R.) at 1081a-87a.
FACTUAL HISTORY
On or about March 24, 1930, husband and wife John
J. Coyne and Mary Coyne filed the Coyne Plan of
Lots (Coyne Plan) with the City, which subdivided
2.5 acres into 28 lots (Coyne Terrace). Stipulation of
Facts ¶ 7, R.R. at 1083a; Coyne Plan, R.R. at 1018a.
Coyne Terrace is bisected by a 40-foot-wide private
road. Stipulation of Facts ¶ 8, R.R. at 1083a. The
private road is marked “private” on the Coyne Plan.
See Coyne Plan, R.R. at 1018a. The Coyne Plan also
includes a 10-foot by 90.53-foot alleyway (Private
Alleyway). Stipulation of Facts ¶¶ 9 & 12, R.R. at
1083a-84a. The Coyne Plan shows that the Private
Alleyway, which abuts the southeastern part of the
private road, was only accessible from the private
road. See Coyne Plan, R.R. at 1018a.
“On August 11, 1948, City Ordinance 334 opened the
section of Coyne Terrace from Lydia Street to a point
97.46 [feet] west of Winterburn Avenue,” thereby
making this section a public street. 4 Stipulation of
Facts ¶ 10, R.R. at 1083a-84a. “The remainder of
Coyne Terrace remained a [p]rivate [s]treet.”
in November 2008, Allegheny County started assessing the
private street and the private alleyway for real estate taxes
dating back to 2004. City’s Letter of Oct. 31, 2014, R.R. at
1307a; see City Dep’t Finance Memorandum (Fin.
Memorandum), R.R. at 1150a.
The record is unclear as to how this portion of the private road
became public. See City’s Brief at 4.

4

A4

Stipulation of Facts ¶ 11, R.R. at 1084a. The City
never accepted the remainder of the private road
(which remainder is referred to herein as the Private
Street) and the Private Alleyway for public use. 5
Stipulation of Facts ¶ 16, R.R. at 1084a. (The Private
Street and the Private Alleyway are sometimes
collectively referred to herein as the Subject
Property.)
*2 Appellants are owners of lots within the Coyne
Plan. Stipulation of Facts ¶ 13, R.R. at 1084a.
Appellant Henrieta Pisztora (Pisztora) owns and
resides at 4144 Winterburn Avenue. Stipulation of
Facts ¶ 1, R.R. at 1082a. Appellants Stephen W.
Sturm and Mary Alice Sturm (together, Sturms)
own and reside at 4146 Winterburn Avenue.
Stipulation of Facts ¶ 2, R.R. at 1083a. Appellants
Gregory J. Walsh and Marianne B. Walsh (together,
Walshes) own and reside at 542 Coyne Terrace.
Stipulation of Facts ¶ 3, R.R. at 1083a. Pisztora’s
property abuts both the Private Street and the
Private Alleyway. Stipulation of Facts ¶ 14, R.R. at
1084a. (Pisztora’s parcel apparently is adjacent to
the Private Street to the south.) The properties of
the other Appellants “are adjacent to and/or abut the
Private Alley[w]ay.” Stipulation of Facts ¶ 15, R.R.
at 1084a. Cronin owns and resides at 4136
5 The parties dispute whether the Private Street and the
Private Alleyway were ever dedicated for public use. There is
nothing in the record that shows that it was formally offered
for dedication. The parties disagree over the legal effect of
marking a street “private” on a plan of lots that was later
recorded and whether such constitutes a dedication. Because
of our disposition, we do not reach this issue.

A5

Winterburn Avenue. Stipulation of Facts ¶ 6, R.R. at
1083a. (Cronin’s parcel apparently is adjacent to the
Private Street to the north.)
On October 25, 2013, pursuant to the Treasurer’s
Sale Act, the City exposed the entire Subject
Property for sale at a treasurer’s sale. Stipulation of
Facts ¶ 17, R.R. at 1084a. Prior to the sale, the City
sent written notice of the treasurer’s sale to
individuals with the names John Coyne or Mary
Coyne. 6 Stipulation of Facts ¶ 18, R.R. at 1084a. The
Section 203 of the Treasurer’s Sale Act sets forth provisions
regarding notice of a Treasurer’s Sale as follows:

6

(a) System.--The treasurer shall establish a system of effecting
notice to interested parties. The procedure shall be reasonably
calculated under the circumstances to apprise the interested
parties of the pendency of the sale and to afford parties the
opportunity to defend their interests in the property.
(b) Service.--Service of written notice made by certified mail is
complete when the notice is mailed. If the notice is not
delivered or claimed, delivery is refused, the return receipt is
not executed or the treasurer fails to receive information from
the post office respecting the notice before the date fixed for
sale, the validity of the service shall not be impaired and the
sale shall proceed at the time fixed by the notice. Information
or material received by the treasurer from the post office
respecting the notice, whether before or after the sale, shall be
included in the treasurer’s report filed with the court under
section 305.
(c) Challenge.--A challenge by an owner to the inclusion of a
property in the sale shall be taken by the owner within ten days
after service of written notice by filing a verified objection in
writing with the treasurer.

(d) Effect of notice.--No sale may be set aside and no title to
property sold may be invalidated if notice was given under this
section.

53 P.S. § 27203. The City admits that owners of record are

A6

City did not send written notice of the treasurer’s
sale to Appellants. Stipulation of Facts ¶ 19, R.R. at
1084a. At the treasurer’s sale on October 25, 2013,
Cronin purchased the Subject Property. See Original
Record (O.R.) Item 2, Return of Sale at 4.
More than two years later, on or about December 30,
2015, Appellants served a Petition for Rule to Show
Cause (Petition) on the City and Cronin seeking to
void the treasurer’s sale of the Subject Property and
to strike the deed the City issued to Cronin. Petition
¶ 26 & Wherefore Clause, R.R. at 1009a-10a;
12/30/15 Trial Court Docket Entry, R.R. at 1395a.
Despite the Subject Property being marked
“private,” Appellants alleged that the Subject
Property was laid out on the Coyne Plan to be
dedicated for public use, but that the City never
accepted the dedication. Petition ¶ 16, R.R. at 1008a.
Relying on section 1 of the Act of May 9, 1889, P.L.
173, 36 P.S. § 1961 (Section 1961), Appellants
alleged that because the City did not accept the
Subject Property for public use within 21 years after
it was laid out on the Coyne Plan, Appellants, as
abutting landowners, “were and are entitled to take
legal title to the center line of the [Private Street and
Private Alleyway], which abut their respective
properties.” 7 Petition ¶¶ 14-19, R.R. at 1008a-09a.
entitled to notice by mail. See City’s Brief at 4.
Section 1961 sets forth a 21-year statute of limitations for a
municipality to accept a plotted street or alleyway dedicated
for public use. It states:

7

Any street, lane or alley, laid out by any person or
persons in any village or town plot or plan of lots, on
lands owned by such person or persons in case the

A7

Section 102 of the Treasurer’s Sale Act defines an
interested party as “[a] person who has an interest
of record in the property.” 53 P.S. § 27102.
Appellants claimed that as “interested parties” and
legal title owners of the Private Street and/or the
Private Alleyway, 8 the City was required to give
Appellants notice of the treasurer’s sale of the
Subject Property by written certified mail. Petition
¶¶ 21-22 & 25, R.R. at 1009a. Appellants alleged
that the City failed to provide such notice, and
consequently, the treasurer’s sale of the Subject
Property was void and the deed to Cronin should be
stricken. Petition ¶¶ 22, 24 & 26, R.R. at 1009a.
Appellants further alleged that due process of law,
as guaranteed by the United States and
Pennsylvania Constitutions, requires at a minimum
that as owners of land, Appellants were entitled to
actual notice of the treasurer’s sale before they
forfeited their interest in the Subject Property and
that the City did not take reasonable efforts to effect
actual notice. Petition ¶ 23, R.R. at 1009a.
same has not been opened to, or used by, the public
for twenty-one years next after the laying out of the
same, shall be and have no force and effect and shall
not be opened, without the consent of the owner or
owners of the land on which the same has been, or
shall be, laid out.
36 P.S. § 1961.

Pisztora claims legal title to the center line of the Private
Alleyway and the Private Street, and the other Appellants
claim legal title to the center of the Private Alleyway. However,
we note that in Appellants’ Motion for Summary Judgment
filed with the trial court, Pisztora argues she has title to the
entirety of the Private Street. MSJ ¶¶ 56-60 & 65, R.R. at
1198a-99a. This inconsistency does not affect our analysis.

8

A8

*3 On January 5, 2016, the trial court issued a Rule
upon all parties to show cause why the treasurer’s
sale of the Subject Property on October 25, 2013
should be deemed void and the deed issued to Cronin
stricken. 1/5/16 Trial Court Docket Entry, R.R. at
1459a. The City and Cronin each answered and filed
New Matter, which the City subsequently amended,
R.R. at 1024a-42a, and Appellants filed a Motion for
Summary Judgment. R.R. at 1189a-1215a.
On May 12, 2017, the City and Cronin each filed a
Motion to Dismiss, seeking dismissal of the case for,
among other things, lack of jurisdiction. R.R. at
1281a-92a & 1393a. The City argued that under
Section 303 of the Treasurer’s Sale Act, 53 P.S. §
27303, Appellants had 30 days from the date of the
treasurer’s sale to appeal the sale; Appellants failed
to do so, so the trial court was without jurisdiction to
hear the appeal. City’s Motion to Dismiss ¶¶ 17 &
19, R.R. at 1289a. The City further noted that
Appellants failed to avail themselves of an appeal
nunc pro tunc and asserted that Appellants were not
entitled to nunc pro tunc relief, as Appellants did not
proceed with reasonable diligence in prosecuting
their appeal. City’s Motion to Dismiss ¶¶ 18-25, R.R.
at 1289a-90a. In particular, the City claimed
Pisztora knew of the treasurer’s sale by at least
August 1, 2014, when she retained counsel and sent
a letter to Cronin. City’s Motion to Dismiss ¶ 22,
R.R. at 1290a. The City and Cronin claimed that the
other Appellants signed a petition on November 15,
2014, requesting that the City rescind the
treasurer’s sale of the Subject Property. City’s

A9

Motion to Dismiss ¶ 23, R.R. at 1290a. Additionally,
the City alleged that Appellants Pisztora and
Stephen Sturm were interviewed by television
reporter Andy Sheehan regarding this matter on
July 21, 2015. City’s Motion to Dismiss ¶ 24, R.R. at
1290a; see Trial Court Opinion at 4 (referring to
television station interview). Yet, the City points out
that none of Appellants filed an appeal or sought
nunc pro tunc relief.
In opposition to the Motions to Dismiss, Appellants
argued that the time for them to challenge the
treasurer’s sale had not yet started to run because
they were “interested parties” who were never given
notice of the treasurer’s sale. They asserted that the
lack of notice to Appellants, as “interested parties,”
deprived them of their constitutional right to due
process, making the treasurer’s sale void ab initio.
They argued, therefore, that it did not matter if
Appellants knew of the treasurer’s sale after it had
happened and failed to file a timely appeal or move
for nunc pro tunc relief. Appellants’ Response in
Opposition to Motions to Dismiss, R.R. at 1333a-38a.
On May 17, 2017, the trial court held a final hearing
on the merits in the matter. 5/17/17 Transcript, R.R.
at 1368a; see 12/16/16 Trial Court Order Docket
Entry (setting case for trial on 5/17/17), R.R. at
1461a. The trial court began by noting that this was
“the time set for a final hearing” and that the parties
had filed joint stipulations of fact. 9 R.R. at 1368a.
Appellants filed a pre-trial statement on May 1, 2017, and
Cronin filed a pre-trial statement on May 3, 2017. O.R. Items
48 & 50.
9

A10

The trial court further stated that it deferred ruling
on the Motions to Dismiss, as well as on Appellants’
previously filed Motion for Summary Judgment, and
that it “offered today as a date for you to be able to
call witnesses, additional witnesses over and above
the testimony that has been offered through
stipulation.” R.R. at 1369a. During the hearing, the
parties offered exhibits and presented argument.
See R.R. at 1368a-87a. After Appellants rested, the
trial court stated that “[a]ll of the documents that
have been offered through the Summary Judgment
and Motions to Dismiss and filed of record are made
a part. And all of the pleadings that have been filed
are made a part of the record.” R.R. at 1375a. At the
conclusion of the hearing, the trial court stated it
would review the documents and issue a decision.
R.R. at 1387a. The trial court docket does not
contain any orders disposing of the Motion for
Summary Judgment or the Motions to Dismiss. See
R.R. at 1457a-62a.
*4 After the final hearing on the merits, by order and
opinion filed June 7, 2017, the trial court dismissed
Appellants’ case. In its opinion, the trial court
concluded that Appellants were not “interested
parties” within the meaning of the Treasurer’s Sale
Act because Appellants failed to prove more than a
possible ownership interest in the Subject Property.
Trial Court Opinion at 4. The trial court also held
that Appellants did not timely appeal the treasurer’s
sale, which was a jurisdictional defect. Id. The trial
court noted that the sale occurred on October 25,
2013 and found that Appellants engaged legal
counsel by August 1, 2014, signed a petition

A11

regarding the sale on November 15, 2014, and were
interviewed by a television station about the matter
on July 21, 2015; yet, Appellants did not file their
Petition until December 2015. Id. The trial court
stated that there was “no explanation on the record
as to why [Appellants] waited more than two years
to take any steps to set aside [the] sale[ ]” and
further noted that Appellants had not sought relief
nunc pro tunc. Id. Appellants then appealed to this
Court. 10
ARGUMENTS
Before addressing Appellants’ arguments, we point
out that, after the parties filed their briefs and
supplemental briefs in the present matter, the
Pennsylvania Superior Court decided a case brought
against Cronin by other homeowners in the Coyne
Plan. Cunningham v. Cronin, 206 A.3d 569 (Pa.
We note that the trial court did not dispose of the Motion for
Summary Judgment and the Motions to Dismiss and held a
hearing on the merits. See supra p. 8. Therefore, we are not
required nor limited to accepting as true the averments in the
relevant pleadings. Cf. Nutrition Mgmt. Servs. Co. v.
Hinchcliff, 926 A.2d 531, 535 (Pa. Super. 2007) (stating that on
a motion to dismiss, the evidence must be viewed in the light
most favorable to the non-moving party). Our review in tax sale
cases is limited to a determination of whether the trial court
abused its discretion, rendered a decision which lacked
supporting evidence or clearly erred as a matter of law. 777
L.L.P. v. Luzerne Cty. Tax Claim Bureau, 111 A.3d 292, 296
(Pa. Cmwlth. 2015). “[A] court abuses its discretion when it
misapplies the law, exercises its judgment in a manifestly
unreasonable manner, or reaches a conclusion as a result of
partiality, prejudice, bias or ill will.” In re Private Tax Sale of
Premises 214 Plushmill Rd., Nether Providence Twp.,
Delaware Cty., 533 A.2d 1117, 1119 (Pa. Cmwlth. 1987).
10

A12

Super. 2019). Beginning in July 2015, Cronin had
blocked those homeowners’ access to the Private
Alleyway, and the homeowners filed suit, asserting
rights in the Private Alleyway via an easement by
implication. Id. at 571. The Superior Court agreed
that the homeowners had an easement by
implication in the Private Alleyway and also held
that the treasurer’s sale did not extinguish the
homeowners’ easement by implication. Id. at 573.
That decision was not appealed, and at oral
argument in this matter, the parties agreed that,
based on Cunningham, Appellants have an
easement by implication in the Subject Property and
that they retain such easement by implication, as it
was not extinguished by the treasurer’s sale.
Turning back to the issues before us, Appellants
argue that the trial court erred as a matter of law in
dismissing their Petition. Appellants raise several
issues for our review, including that the trial court
erred in failing to recognize that Appellants are,
pursuant to the Treasurer’s Sale Act, “interested
parties” as a matter of law and in failing to hold that
the treasurer’s sale was void ab initio due to the lack
of notice to Appellants. Appellants’ Brief at 2-3. In
particular, Appellants contend that because they are
“interested parties” and because the City failed to
provide them with proper notice, the sale is void ab
initio. 11 Appellants’ Brief at 14. They argue,
Appellants also assert, assuming, arguendo, that the Coynes
were the record owners of the Subject Property, the sale is void
ab initio due to lack of notice to the Coynes or their heirs, and
Appellants seek to challenge the propriety of the notice, or lack
thereof, to the Coynes or their heirs. See Appellants’ Brief at
17-21 & 24-25. However, Appellants lack standing to assert
11

A13

therefore, that the 30-day time limitation for filing
an appeal of the treasurer’s sale never began to run.
Id. at 9. Appellants request that this Court reverse
the trial court’s decision, and for the first time on
appeal, request that this Court deem their Petition
before the trial court as one filed nunc pro tunc. 12 See
infra note 15 and accompanying text. Further,
Appellants request that we remand the matter to
the trial court with direction to void the treasurer’s
sale. Appellants’ Supplemental Brief at 17.
*5 In response, the City argues, inter alia, that this
case should be dismissed for lack of jurisdiction
because even assuming, arguendo, that Appellants
were entitled to notice, Appellants did not file a
timely appeal and they did not seek to file an appeal
nunc pro tunc before the trial court. 13 City’s Brief at
10-13. Appellants, however, argue that the City
claims on behalf of the Coynes or their heirs. See Plank v.
Monroe Cty. Tax Claim Bureau, 735 A.2d 178, 182 (Pa.
Cmwlth. 1999) (stating, “[o]nly a person who has suffered an
injury as a result of the claimed lack of notice may raise it”); In
re Tax Claim Bureau of Lehigh Cty. 1981 Upset Tax Sale
Props., 507 A.2d 1294, 1297 (Pa. Cmwlth. 1986) (stating that
notice to mortgagee was intended for due process protection of
that lienholder and failure of such notice does not inure to
benefit of owner and vitiate the sale).
12 This Court may not consider issues on appeal that were not
raised before the trial court. Pa.R.A.P. 302(a) (stating, “[i]ssues
not raised in the lower court are waived and cannot be raised
for the first time on appeal”).

13 As a result of her failure to file a brief by the date ordered by
this Court, we precluded Cronin from filing a brief and
participating in oral argument. Cmwlth. Ct. Order dated
12/8/17.

A14

should be “estopped from invoking the statute of
limitations as a bar to the Appellants’ action[,]”
because the City, “for two (2) years or more” assured
Appellants that it would “remedy the issues caused
by the defective Treasurer’s Sale.” Appellants’ Brief
at 26. Despite not being part of the record in this
matter, Appellants point to a public Facebook post
dated December 16, 2015 by Kevin Acklin (Acklin),
Chief of Staff for the City’s Mayor, in which Acklin
expressed an intention “to preserve this public right
of way for the greater Greenfield community.” 14
Appellants’ Brief at 26; see infra p. 17. Appellants
allege that they “relied on [the City’s]
representations that the sale would be ‘invalidated’
and/or the ‘public right of way’ be preserved by
eminent domain[,]” and, as a result, Appellants
“relax[ed] their vigilance” and did not take legal
action “within the statute of limitations as
We note that Appellants cite to page 1474a of their
reproduced record, which is an email containing the Facebook
post. This document is not part of the trial court’s original
record provided to this Court. We may not consider anything
that is outside the record. Pa.R.A.P. 1921 (stating, “[t]he
original papers and exhibits filed in the lower court, paper
copies of legal papers filed with the prothonotary by means of
electronic filing, the transcript of proceedings, if any, and a
certified copy of the docket entries prepared by the clerk of the
lower court shall constitute the record on appeal in all cases);
Pa.R.A.P. 1921, Note (stating appellate court may consider
only facts in record on appeal). Appellants have not indicated
that the record from the trial court is incomplete. See Pa.R.A.P.
1921, Note (“Parties may rely on the list of documents
transmitted to the appellate court and served on the parties. If
the list shows that the record transmitted is incomplete, the
parties have an obligation to supplement the record pursuant
to Rule 1926 (correction or modification of the record) or other
mechanisms in Chapter 19.”).
14

A15

prescribed by the [Treasurer’s Sale] Act.” Id.
The City, on the other hand, contends that an
estoppel argument is not applicable as Section 303
of the Treasurer’s Sale Act is a jurisdictional
limitation. Additionally, the City points out that the
Facebook post did not occur until December 16,
2015, over two years after the sale, and over one year
after Appellants knew of the sale and that,
therefore, Appellants were not lulled into nonvigilance. City’s Brief at 13. The City argues that
there is “no proof on the record of such claimed
reliance” and, further, contends that the argument
is “unconvincing” because Appellants filed their
Petition two weeks after the Facebook post. See id.;
Oral Argument 5/8/19. Additionally, the City points
to a letter dated October 31, 2014 (Letter) from its
Assistant City Solicitor addressed to Cronin’s and
Pisztora’s counsel, stating that, after investigation,
the City concluded that the sale was “done
correctly.” Oral Argument 5/8/19; see City’s Brief at
5 (citing Letter, R.R. at 1307a, stating the Subject
Property was “correctly included in the October 25,
2013 Treasurer’s Sale for delinquent taxes”); Letter,
O.R. Item 51, Appendix to Motion to Dismiss.
ANALYSIS
We begin by pointing out that we need not, and do
not, decide whether Appellants had an ownership
interest in the Subject Property, thereby making
them “interested parties,” or whether Appellants’
easement by implication is an interest “of record,”
thereby making Appellants “interested parties.”
Even assuming, arguendo, that Appellants were

A16

entitled to notice, we agree with the City that, under
the circumstances here, Appellants did not file a
timely appeal and they did not seek to file their
appeal nunc pro tunc with the trial court.
*6 Initially, we note that, at oral argument, in
response to the City’s argument that Appellants
never petitioned the trial court for nunc pro tunc
relief, Appellants’ counsel asserted that Appellants
asked for such relief when they sought to amend the
pleadings to conform to the evidence produced before
the trial court, and the trial court denied that relief.
Oral Argument 5/8/19. However, our review of the
record reveals that, although the trial court granted
Appellants’ request to amend their Petition, such
request did not seek to amend the Petition to make
it an appeal nunc pro tunc. 15
At argument, Appellants’ counsel acknowledged that the
trial court granted Appellants the ability to amend their
Petition, but asserted that the Motions to Dismiss were filed,
and granted, before Appellants could do so. Oral Argument
5/8/19. Notably, Appellants had sought permission to amend
their Petition only to include the constitutional claims that
they had raised for the first time in their Motion for Summary
Judgment, not for nunc pro tunc relief. See Hearing Transcript
5/9/17 at 3, R.R. at 1402a (Appellants’ counsel stating
Appellants seek to amend Petition to include four arguments
raised in the Motion for Summary Judgment concerning equal
protection, due process and claims under 42 U.S.C. § 1983);
MSJ, R.R. at 1205a-14a. At the hearing held on May 9, 2017,
the trial court granted Appellants’ motion to amend, directing
Appellants to file their amended pleading within 10 days,
which would have been May 19, 2017. See R.R. at 1409a-10a;
see also Appellants’ Brief at 7 (stating trial court granted
Appellants 10 days to file an amended petition to include
constitutional claims). Despite Appellants’ assertion that they
could not file an amended petition due to the City and Cronin
15

A17

Section 303 of the Treasurer’s Sale Act requires an
appeal to be filed within 30 days of the date of the
treasurer’s sale. 16 “[S]tatutory appeal periods are
mandatory and may not be extended as a matter of
grace or mere indulgence.” Stanton v. Dep’t of
Transp., Bureau of Driver Licensing, 623 A.2d 925,
926 (Pa. Cmwlth. 1993).
*7 We acknowledge that, generally, in tax sale cases,
where a party was entitled to notice and did not
receive notice, this Court has held that the tax sale
filing their Motions to Dismiss, Appellants’ Brief at 7, there is
nothing in the record to indicate that the City’s and Cronin’s
filings prevented Appellants from filing an amended petition.
The trial court did not dismiss Appellants’ case until June 7,
2017, well after the 10-day period. On June 9, 2017, after the
10-day period within which Appellants were directed to file the
amended pleading and after their case was dismissed,
Appellants filed a “Motion to Conform the Pleadings to the
Evidence and Leave to Amend pursuant to Pa.R.C.P. [No.]
1033” (Motion to Conform). R.R. at 1462a; see O.R. Item 59.
The amended pleading was not attached to this motion and was
never filed with the trial court. See Motion to Conform, O.R.
Item 59. Additionally, the Motion to Conform sought only to
amend the Petition to “conform to the evidence as set forth in
the Motion for Summary Judgement [sic], a Brief in Support of
the Motion for Summary Judgment and an Appendix in
Support of the Motion for Summary Judgment” and to “include
the causes of action raised in their Motion for Summary
Judgment.” Id. ¶¶ 7-8. The Motion to Conform did not seek
nunc pro tunc relief. See generally Motion to Conform, O.R.
Item 59.
16 Section 303(a) of the Treasurer’s Sale Act provides, in
relevant part, “[a]n interested party whose vested right in
property is adversely affected by the treasurer’s sale may have
30 days in which to file an appeal with the court of common
pleas contesting the regularity of the sale procedure.” 53 P.S. §
27303(a).

A18

was void ab initio. In re Amended Petition of Tax
Claim Bureau of Washington Cty., 149 A.3d 920, 926
(Pa. Cmwlth. 2016) (holding that where party
challenging sale was entitled to notice and did not
receive notice, sale was void ab initio). In relying on
such precedent to argue that the 30-day time
limitation for filing an appeal of the treasurer’s sale
never began to run Appellants essentially claim that
there is no time limit in which they had to file the
appeal and that they need not file an appeal nunc
pro tunc. Appellants’ argument effectively seeks to
have this Court authorize an appeal period ad
infinitum. Appellants, however, did not direct this
Court to any case law wherein a party— once the
party acquired knowledge of the sale— was granted
a period of time in which to appeal that was greater
than that allowed by statute.
Instead, in considering Appellants’ argument that
the 30-day time limitation for filing an appeal of the
treasurer’s sale never began to run, we note the
persuasive value of this Court’s unreported opinion
in In re Dauphin County Tax Claim Sale of 2001 (Pa.
Cmwlth., No. 493 C.D. 2009, filed January 25, 2010),
slip op. at 3. 17 In In re Dauphin County Tax Claim
Sale, the property owner filed a “Motion for Leave to
File Objections and Exceptions Nunc Pro Tunc” to
the tax sale. Id. at 1. In the motion, the property
owner alleged that it did not receive any of the
required notices. Id. at 2. The trial court denied the
motion because the property owner filed it more
17 This Court’s unreported memorandum opinions may be cited
for persuasive value. Commonwealth Court Internal Operating
Procedure § 414(a), 210 Pa. Code § 69.414(a).

A19

than 30 days after gaining actual knowledge of the
sale. Id. at 1. The trial court reasoned that, in the
usual case under the applicable statute, objections
or exceptions must be filed within 30 days of the
confirmation nisi, and although the applicable
statute did not set a 30-day period for filing
objections or exceptions nunc pro tunc after actual
notice of a tax sale, “it would be absurd to interpret
[the applicable statute] to allow a person with notice
of a tax sale an indefinite period of time for
requesting nunc pro tunc relief.” Id. at 3 (footnote
omitted). This Court affirmed and in doing so
reasoned that had the trial court given more than 30
days from the time when the property owner gained
actual knowledge of the sale for the property owner
to file its objections and exceptions, “then [the
property owner] would have been in a better position
than a person who, unlike [the property owner],
received notice of the tax sale and Confirmation
Nisi.” Id. at 3.
Similarly, under the circumstances here, even if
Appellants had requested nunc pro tunc relief before
the trial court, it would be unreasonable and absurd
to allow Appellants a period of time well in excess of
that permitted under the law in order to request
relief once they learned of the treasurer’s sale. See
In re Dauphin Cty. Tax Claim Sale. Indeed, the trial
court found, and the record established, that
Appellants knew of the sale for at least one year
before they filed their Petition. Specifically, Pisztora
engaged legal counsel by August 1, 2014, and
Appellants signed a petition regarding the sale on
November 15, 2014. Trial Court Opinion at 4; see
R.R. at 1302a & 1308a-12a. However, Appellants did

A20

not file their Petition until December 2015, over a
year after learning of the sale. Were we to accept
Appellants’ argument here, effectively granting
Appellants no time limit in which to appeal, doing so
would place Appellants in a better position than
others who received notice pursuant to Section 303
and are subject to the 30-day time limitation of
Section 303. See In re Dauphin Cty. Tax Claim Sale,
slip op. at 3. Appellants cannot rely on their claims
of lack of proper notice to allow them to wait for an
extended period of time to bring those claims once
they have actual knowledge. See id.; cf. Ercolani v.
Dep’t of Transp., Bureau of Driver Licensing, 922
A.2d 1034, 1037 (Pa. Cmwlth. 2007) (stating that a
petitioner in a nunc pro tunc appeal must proceed
with reasonable diligence once he knows of necessity
to take action). To the extent Appellants ask the
Court to use equitable powers in this matter, we
observe that “[e]quity aids the vigilant, not those
who slumber upon their rights.” Northrup v. Pa.
Game Comm’n, 458 A.2d 308, 310 n. 2 (Pa. Cmwlth.
1983) (quoting Riley v. Boynton Coal Co., 157 A. 794,
795 (Pa. 1931)); see also City of Philadelphia v. Aston
(Pa. Cmwlth., No. 249 C.D. 2018, filed December 6,
2018), slip op. at 8 (quoting Northrup when rejecting
petitioner’s claim that the court use equitable
powers to set aside tax sale where, among other
things, petitioner waited more than 40 days after
she was allowed to intervene to file a petition to set
aside a tax sale, which petition was nearly identical
to a prior petition filed by petitioner, which prior
petition the trial court had denied because petitioner
was not a party to the underlying proceedings and,
therefore, lacked standing). Equity “is not a back

A21

door to be used when one sits on his legal rights and
lets them expire.” Dorfman v. Pa. Social Servs.
Union – Local 668 of Serv. Emps. Int’l Union, 752
A.2d 933, 938 (Pa. Cmwlth. 2000) (Flaherty, J.,
concurring); see also Aston, slip op. at 8 (quoting
Dorfman, (Flaherty, J., concurring)).
*8 Further, although Appellants argue that they
were lulled into non-vigilance, pointing to the
December 16, 2015 Facebook post, the trial court
found, “[t]here is no explanation on the record as to
why [Appellants] waited more than two years to take
any steps to set aside this sale.” Trial Court Opinion
at 4. Our review of the original record from the trial
court reveals that Appellants did not offer the
Facebook post as evidence before the trial court, nor
did Appellants advance before the trial court the
argument that they delayed filing their Petition
because they were lulled into non-vigilance. See
generally O.R. Item 56, Appellants’ Response In
Opposition To Motions to Dismiss, R.R. at 1333a51a; Hearing Transcript (H.T.) 5/17/17 at 16-22, R.R.
at 1381a-86a. This Court may not consider evidence
or assertions that were not part of the record before
the trial court. See Pa.R.A.P. 1921 & Note (stating
what constitutes the record on appeal and that
appellate court can only consider facts in the record);
Tennyson v. Zoning Hearing Bd. of W. Bradford
Twp., 952 A.2d 739 (Pa. Cmwlth. 2008) (stating
assertions that are outside the record may not be
considered on appeal); supra note 14.
For the foregoing reasons, the trial court did not err
as a matter of law in dismissing Appellants’

A22

Petition. 18
Nevertheless, the Dissent asserts that there was no
time limit within which Appellants had to file their
appeal because the trial court lacked jurisdiction
and because the sale was void due to the lack of
notice to Appellants. Regarding the purported lack
of subject matter jurisdiction, the trial court had
jurisdiction over the subject matter of the tax sale.
See Section 303 of Treasurer’s Sale Act, 53 P.S. §
27303 (stating, an “interested party whose vested
right in property is adversely affected by the
treasurer’s sale may have 30 days in which to file an
appeal with the court of common pleas contesting
the regularity of the sale procedure” and that “the
court shall enter an order either upholding the
regularity of the sale or requiring the property to be
listed for the next treasurer’s sale”). With respect to
Appellants’ failure to receive notice, the Dissent’s
position is premised on the erroneous assumption
that Appellants were entitled to notice. However, as
will be explained, and as the trial court found,
Appellants never established that they had an
“interest of record” that would have made them
“interested parties” entitled to notice.
The Dissent accuses the City of using the
Treasurer’s Sale Act as a “substitute for a quiet title
action” and states, “[t]he Treasurer’s Sale Act is not
the vehicle by which to establish the ownership” of
the Subject Property. Dissent at 1 & 3 (emphasis
omitted). Yet, establishing ownership of the Subject
Because of our disposition, we need not address Appellants’
remaining arguments.
18

A23

Property is precisely what Appellants tried to do in
this action and it is the focus of the Dissent. 19 The
Dissent states, “[r]egardless of what interest is held
by the ‘grantees’ of lots adjacent to the Subject
Property, the Coynes have no interest. Neither do
their heirs, assuming any exist.” 20 Dissent at 3.
While we disagree with the Dissent that the Coynes
or, more accurately, their heirs, held “zero interest”
in the Subject Property, and even assuming that the
City served “dead people,” whether the Coynes—or
their heirs—should have received notice is not the
issue. This attempt to shift the focus of this matter
to the Coynes is misplaced, as whether the Coynes
are, in fact, the record owners of the Subject
Property is not before us. Rather, the only issue
before this Court is whether Appellants established
that they were “interested parties,” i.e., that they
have an “interest of record,” thereby entitling them
to notice under the Treasurer’s Sale Act. See supra
p. 5 (quoting 53 P.S. § 27102).
*9 With respect to the interest of the adjacent lot
owners, i.e., Appellants here, the Dissent correctly
notes the following statements of law:
An objection to a Treasurer’s Sale Act is not an action by
which one can establish the ownership of a parcel of property.
Rather, a quiet title action would be the appropriate action for
such a determination. See Pa.R.C.P. No. 1061 (stating a quiet
title action may be brought to determine any title or interest in
the land).

19

We note there is nothing in the record to establish whether
Coyne heirs exist, whether a deed ever transferred the Coynes’
interest in the Subject Property, or whether a dedication of the
Private Street ever occurred. There is nothing in the record
that tracks the Coynes’ fee interest in the Subject Property.
20

A24

Our courts have established that “where the
side of a street is called for as a boundary in a
deed, the grantee takes title in fee to the center
of the street if the grantor had title to that
extent and did not expressly or by clear
implication reserve it.” Heller v. Borough of
South Williamsport, 408 A.2d 1172, 1173 n.2
(Pa. Cmwlth. 1979); see also Rahn v. Hess, 106
A.2d 461, 464 (Pa. 1954). There is a distinction
between properties bounded by public streets
and properties bounded by private streets.
Justin J. Powell, Inc. v. Wian, 318 A.2d 346,
350 (Pa. 1974). “Where the street called for as
a boundary is not a public highway nor
dedicated to public use, the grantee does not
take title to the middle of it but acquires an
easement by implication over it.” Beechwood v.
Reed, 265 A.2d 624, 626 (Pa. 1970) (emphasis
added).
Dissent at 2.
Also relevant is Allen v. Sheib, 101 A. 102 (Pa. 1917),
wherein our Supreme Court reviewed a deed that
described the property boundary as “along a certain
road,” and that road was a private road. Id. at 10203. The Supreme Court ruled that such reference in
the deed did not show that title to the fee had passed.
Id. at 103. The Supreme Court further stated that
the reference to the road, and especially the “private
road,” as the boundary in the deed indicated that the
deed owner held an easement interest rather than a
fee interest. Id. The Supreme Court went on to state
that “[t]he mere reference in a conveyance to a
private road does not tend to show ownership in fee

A25

thereof in the party for whose use it may have been
established.” Id. at 104.
More recently, our Supreme Court discussed Allen
in the case of Starling v. Lake Meade Property
Owners Association, Inc., 162 A.3d 327 (Pa. 2017),
which involved a dispute over ownership of, inter
alia, a road in a homeowners association where lots
were conveyed by reference to a recorded subdivision
plan. Id. at 330-31 nn.4 & 6. Our Supreme Court
noted that Allen does not suggest that a subdivision
owner conveys, abandons or extinguishes its fee in
the road simply by selling off subdivision lots.
Starling, 162 A.3d at 344.
Thus, the passing of title depends on whether the
streets serving as the boundary lines, here the
Private Street and Private Alleyway, were public or
dedicated to public use. See Beechwood; Allen.
Although the Dissent stops short of expressly stating
that Appellants have an ownership interest in the
Subject Property, this is the implication. Under the
circumstances here, the Dissent’s reliance on Heller
and Rahn to imply that title passed to Appellants
based on the Private Alleyway and/or the Private
Street serving as a boundary for Appellants’
property is unsupported. 21 The Dissent effectively
Notably, although Appellants’ Motion for Summary
Judgment raised an argument alleging they had title to the
center line of the Subject Property based on boundary
descriptions in their deeds, MSJ ¶¶ 42-46, R.R. at 1196a,
Appellants’ Petition did not assert this claim as a basis for
entitlement to notice. Appellants also did not attach their
deeds as exhibits to the Petition. See Pa.R.C.P. No. 1019(i)
(stating that when any claim is based upon a writing, the

21

A26

implies the passage of ownership to Appellants
because Appellants’ properties abut the Private
Street and/or the Private Alleyway and no deed
reciting a reservation of the Coynes’ ownership
interest in the Subject Property was presented.
Dissent at 3. Contrary to the Dissent’s assertion,
however, the fact that no such deed was presented is
not determinative, as this was not the only way for
the Coynes to have “expressly or by clear
implication” reserved an ownership interest in the
Subject Property.
*10 “[D]edication largely depends on the intention of
the owner of land.” Coffin v. Old Orchard Dev. Corp.,
186 A.2d 906, 909 (Pa. 1962). “A dedication to the
public use must rest on the intention or clear assent
of the owner, and must be under such circumstances
as to indicate an abandonment to the use of the
community.” Id. at 909 (quotation marks and
pleader shall attach a copy of the writing). As such, the
argument is waived. See Pa.R.C.P. No. 1019(a) (stating that
the pleading shall contain the material facts on which a cause
of action is based). Further, because the issue before us is
whether Appellants were entitled to notice and because
Appellants did not claim in their Petition that the boundary
description in their deed necessitated notice to them, this
argument fails.
Nevertheless, counsel for the City agreed that all deeds use
Coyne Terrace as a boundary. See H.T. 5/9/17, R.R. at 1420a21a. Oddly, however, lot numbers 2 and 3 do not even abut
Coyne Terrace. See Coyne Plan, R.R. at 1018a. Lot 3 belongs to
the Sturms. The Stipulation did not expressly include the
Private Alleyway. See H.T. 5/9/17, R.R. at 1420a-21a.
Pisztora’s deed, attached as an exhibit to Appellants’ Motion
for Summary Judgment, describes the property as running
“along a 10 foot way” and along “Coyne Terrace.” R.R. at 1144a.

A27

citation omitted). “Where the dedication of a street
is sought to be established ... by the recording of a
plan ... the evidence must be clear.” Id. Whether land
is dedicated for public use is a question of intention,
which is a question of fact. See Borough of
Mountville v. Gable, 73 Pa. Super. 189, 189 (1919)
(stating it is generally for jury to determine whether
it was owner’s intention to dedicate land).
The Coyne Plan expressly designated the Private
Street as “private” and the only access to the Private
Alleyway was off of the Private Street. “A private
road is private property.” Paul v. Carver, 24 Pa. 207,
211 (1855); see also Chambersburg Shoe Mfg. Co. v.
Cumberland Valley R. Co., 87 A. 968, 970 (Pa. 1913)
(quoting Paul). Even Appellants stipulated to the
fact that after City Ordinance 334 opened a portion
of Coyne Terrace, “[t]he remainder of Coyne Terrace
remained a Private Street.” Stipulation ¶ 11
(emphasis added). The trial court, as the factfinder,
did not find that the Coyne Plan was clear evidence
of the Coynes’ intention to dedicate the Subject
Property or to divest themselves of their interest in
the Subject Property. See Coffin, 186 A.2d at 909.
Rather, the trial court expressly found that
Appellants established nothing more than a possible
ownership interest in the Subject Property. Trial
Court Op. at 4. Because the Subject Property was
neither a public highway nor dedicated to public use,
the Appellants did not take title to the middle of the
Subject Property.
The Dissent correctly notes that Appellants have an
access easement over the Subject Property.

A28

However, we cannot agree with the Dissent’s
conclusion that merely having a plan that depicts a
lot abutting or adjacent to a street gives the lot
owner an “interest of record.” While the physical
relationship of the lots to the street may be “visible
and apparent,” that tells nothing about whether any
interest exists, or the nature of such interest. This is
because Appellants’ easement interest here is an
implied easement which arises by operation of law.
Indeed, “an easement by reference to a map or plan
is not an express easement but rather an easement by
implication.”
Assalita
v.
Chestnut
Ridge
Homeowners Ass’n, 866 A.2d 1214, 1219 (Pa.
Cmwlth. 2005) (emphasis added) (quotation marks
and citation omitted); see Potis v. Coon, 496 A.2d
1188, 1191 (Pa. Super. 1985) (stating that an
easement by reference to a map is a particular type
of implied easement). Thus, Appellants’ interest is
implied by law and therefore is not an interest “of
record,” which is necessary for Appellants to be
deemed “interested parties.” See 53 P.S. § 27102
(defining “interested party”).
To provide that the Coyne Plan gives Appellants an
“interest of record” in the Subject Property would
mean that their interest is apparent from the
recorded document. 22 Further, a municipal taxing
The phrase “of record” is not defined in the Treasurer’s Sale
Act, so we must use the common dictionary definition. See
Section 1903 of the Statutory Construction Act of 1972, 1
Pa.C.S. § 1903 (stating that where terms are not otherwise
defined in a statute, “[w]ords and phrases shall be construed
according to their common and approved usage”); Gmerek v.
State Ethics Comm’n, 751 A.2d 1241, 1260 (Pa. Cmwlth. 2000)
(stating dictionaries are generally used for determining

22

A29

body is not required to perform the equivalent of a
title search or to make decisions to quiet title when
determining the proper subjects of notice of a tax
sale. See Fernandez v. Tax Claim Bureau of
Northampton Cty., 925 A.2d 207 (Pa. Cmwlth. 2007);
Krawec v. Carbon Cty. Tax Claim Bureau, 842 A.2d
520 (Pa. Cmwlth. 2004); Farro v. Tax Claim Bureau
of Monroe Cty., 704 A.2d 1137 (Pa. Cmwlth. 1997).
As such, when a property is to be sold at tax sale, a
municipal taxing body is not required to: perform a
title search to locate the recorded subdivision plan
where a parcel is located; examine the plan; make a
legal determination that the delinquent Subject
Property is not a typical parcel, but is in fact a
private street and private alleyway that were never
dedicated for public use, the existence of which, by
operation of law, gives rise to an unexpressed, but
implied, easement of access to the abutting
landowners of the private street and private
alleyway.
*11 Additionally, we note that Appellants conceded
at oral argument, based on the Superior Court’s
decision in Cunningham, that Appellants’ implied
easement interest in the Subject Property is not
adversely affected by the sale. See also Tide-Water
Pipe Co. v. Bell, 124 A. 351, 355 (Pa. 1924) (stating
common and approved usage of term), aff’d, 807 A.2d 812 (Pa.
2002). “Of record” means “to set down in writing: make a
written account or note of” or “to cause to be noted officially in
or as if in writing[.]” See Record, Webster’s Third New
International Dictionary 1898 (2002). Accordingly, an
ownership interest must be express. The Coyne Plan is not a
writing evidencing an express ownership or easement interest;
it is a depiction of the subdivision.

A30

that where “land is sold for taxes, an easement,
servitude, or interest in the nature of an easement
is not destroyed, but the purchaser takes subject
thereto”). This Court has held that where a tax
statute provides the procedures for contesting a tax
sale by setting forth who may challenge the sale and
a challenger does not fall within the definition of
those possible challengers, the challenger lacks
standing to appeal. See Plank v. Monroe Cty. Tax
Claim Bureau, 735 A.2d 178, 181 (Pa. Cmwlth.
1999). Here, the Treasurer’s Sale Act provides that
“[a]n interested party [i.e., “a person who has an
interest of record in the property[,]” 53 P.S. § 27102]
whose vested right in property is adversely affected
by the treasurer’s sale” may appeal and contest the
regularity of the sale procedure. 53 P.S. § 27303
(emphasis added). Because their interest has not
been adversely affected by the sale, Appellants have
no standing under the Treasurer’s Sale Act to
challenge the sale, and thus, they cannot assert that
the sale should be declared void ab initio. 23
Accordingly, we affirm the trial court’s order to the
extent that it dismissed Appellants’ Petition as
untimely.

We acknowledge that it appears that the City did not raise
the issue of Appellants’ lack of standing to appeal before the
trial court. However, where, as here, a statute defines who may
appeal, standing becomes interwoven with subject matter
jurisdiction to the point that the court can raise the issue sua
sponte. In re G.D., 61 A.3d 1031 (Pa. Super. 2013).
23

A31

ORDER
AND NOW, this 1st day of November, 2019, the
June 7, 2017 order of the Court of Common Pleas of
Allegheny County is AFFIRMED in accordance with
the foregoing opinion.
CHRISTINE FIZZANO CANNON, Judge

A32

DISSENTING
JUBELIRER

OPINION

BY

JUDGE

COHN

This case is actually quite simple. The City of
Pittsburgh (City) used a statute enacted for
collection of delinquent real estate taxes to establish
ownership of real property. A tax collection statute
is not, however, a substitute for a quiet title action,
and it took legal gymnastics for the City to use the
Second Class City Treasurer’s Sale and Collection
Act 1 (Treasurer’s Sale Act) for this purpose. Not the
least of these gymnastics was the City’s treatment of
John J. Coyne and Mary Coyne (the Coynes), who
filed the Coyne Plan of Lots (Coyne Plan) with the
City in March 1930, as the “record” owners of
interest of the Private Road and Private Alleyway
(Subject Property) and “delinquent taxpayers” in
2013, dutifully sending them a notice of the
impending tax sale of their property. In doing so, the
City had, as the Court of Common Pleas of Allegheny
County (trial court) stated, “served dead people.”
(Hr’g Tr. at 9, Reproduced Record (R.R.) at 1408a.)
The City may as well have named Ichabod Crane
and Little Bo Peep as the delinquent taxpayers in
the tax sale notices it sent.
Even so, the decedents, resurrected for purposes of
the tax sale of the Subject Property, had zero
interest in that property. Nor did their heirs. Our
courts have established that “where the side of a
street is called for as a boundary in a deed, the
grantee takes title in fee to the center of the street if
the grantor had title to that extent and did not
1

Act of October 11, 1984, P.L. 876, 53 P.S. §§ 27101-27605.

A33

expressly or by clear implication reserve it.” Heller
v. Borough of S. Williamsport, 408 A.2d 1172, 1173
n.2 (Pa. Cmwlth. 1979); see also Rahn v. Hess, 106
A.2d 461, 464 (Pa. 1954). There is a distinction
between properties bounded by public streets and
properties bounded by private streets. See Justin J.
Powell, Inc. v. Wian, 318 A.2d 346, 350 (Pa. 1974).
“Where the street called for as a boundary is not a
public highway nor dedicated to public use, the
grantee does not take title to the middle of it but
acquires an easement by implication over it.”
Beechwood v. Reed, 265 A.2d 624, 626 (Pa. 1970).
*12 The Coyne Plan, created and recorded by the
Coynes in 1930, subdivided property into 28 lots
and, bisecting that plan, was a street named Coyne
Terrace that was marked “private,” and the Private
Alley. 2 (Stipulation of Facts ¶¶ 7-9, 12, R.R. at
1083a-84a.) The properties owned by Appellants
Henrieta Pisztora (Pisztora), Stephen W. Sturm and
Mary Alice Sturm (together, Sturms), and Gregory
J. Walsh and Marianne B. Walsh (together,
Walshes) are all lots within the Coyne Plan.
(Stipulation of Facts ¶ 13, R.R. at 1084a.) The
private part of Coyne Terrace and/or the Private
Alleyway serve as the boundary for Appellants’
properties, as their properties either abut and/or are
adjacent to one or the other. (Stipulation of Facts ¶¶
14-15, R.R. at 1084a.) For the Coynes or their heirs
to own that portion of Coyne Terrace, a reservation
While a part of Coyne Terrace was opened as a public street
via a City Ordinance in 1948, the remaining part, i.e., the
Private Road and the Private Alleyway were not. (Stipulation
of Facts ¶¶10-11, R.R. at 1083a-84a).
2

A34

of that ownership interest had to be recited in the
deeds held by the grantees of lots adjacent to the
Subject Property. Beechwood, 265 A.2d at 626;
Heller, 408 A.2d at 1173 n.2. However, no deed with
a reservation of interest in the Coynes was ever
presented. Regardless of what interest is held by the
“grantees” of lots adjacent to the Subject Property,
the Coynes have no interest. Neither do their heirs,
assuming any exist.
The Treasurer’s Sale Act is not the vehicle by which
to establish the ownership of that part of the Subject
Property that the City wants to tax. The Treasurer’s
Sale Act is not a substitute for a quiet title action or
an eminent domain proceeding. The City sent
written notices to the Coynes, knowing they were
dead and could not be the owners of any part of the
Subject Property. Such actions make a mockery of
the law, constitutional and statutory.
The whole proceeding here was backwards. The City
should have first determined ownership of the
parcel; then assessed the property; then taxed the
now-known property owners. All of this had to take
place before the City’s Treasurer could pursue any
delinquent taxpayer for unpaid real estate taxes.
As for Appellants’ interests, Appellants have, at a
minimum, access easements over the Subject
Property that was established via the Coyne Plan, a
document recorded with the City. See, e.g., Cox’s Inc.
v. Snodgrass, 92 A.2d 540, 541 (Pa. 1952) (holding
that a grantee of a lot “sold according to a plan of lots
on which streets or alleys not previously opened or
projected as a public street are plotted out by the

A35

grantor, acquires an easement over those streets
and alleys as a private right of property arising out
of the grant ....”); Cunningham v. Cronin, 206 A.3d
569, 573 (Pa. Super. 2019) (holding that property
owners within the Coyne Plan have easements by
implication over the Subject Property). The fact that
the lots now owned by Appellants abutted and/or
were adjacent to the Subject Property was visible
and apparent on the Coyne Plan and, therefore,
Appellants’ interests should be considered of record.
See Pocono Highland Lake Estates Prop. Owners
Ass’n v. Palys, 56 Pa. D. & C.4th 129, 132 (2002),
aff’d on the trial court opinion, 822 A.2d 879 (Pa.
Cmwlth. 2003) (emphasis added) (holding that a
“path depicted on [a recorded subdivision] map was
visible and apparent to any persons searching the
title prior to the time the defendants took title to
their lots,” which established the existence of an
access easement over the depicted path). Pursuant
to Sections 102 and 203(a) of the Treasurer’s Sale
Act, 53 P.S. §§ 27102, 27203(a), Appellants were
entitled to written notice of the tax sale as they hold
“interest[s] of record” making them “interested
part[ies].” It is undisputed that, notwithstanding the
presence of the recorded Coyne Plan and other
evidence suggesting Appellants’ interest in the
Subject Property, the City did not send written
notice to anyone other than the resurrected Coynes.
*13 This tax sale proceeding did not yield a valid
sale. The trial court lacked jurisdiction under the
Treasurer’s Sale Act to establish the ownership of
the Subject Property and the identity of the
responsible taxpayer. An order by a court that lacks
jurisdiction over the subject matter or of the person

A36

is null and void. DeCoatsworth v. Jones, 639 A.2d
792, 796 (Pa. 1994). “[I]t is never too late to attack a
judgment or decree for want of jurisdiction” and the
“question is always open.” In re Maoying Yu, 121
A.3d 576, 583 n.9 (Pa. Cmwlth. 2015) (quoting
DeCoatsworth, 639 A.2d at 796) (alteration added)
(internal citations omitted). Further, the tax “sale
[was] void” because the City did not comply with the
Treasurer’s Sale Act’s notice requirements when it
did not provide written notice to Appellants. See In
re Upset Sale Tax Claim Bureau McKean Cty. (Miller
Appeal), 965 A.2d 1244, 1246-47 (Pa. Cmwlth. 2009)
(citation omitted). While an action that is “voidable”
is “[v]alid until annulled,” an action that is “void” is
“[o]f no legal effect; null.” Black’s Law Dictionary
1709 (9th ed. 2009). I do not embrace the Majority’s
position that the passage of time and an alleged lack
of vigilance has the effect of precluding Appellants
from challenging an action that is “[o]f no legal
effect.” Id. For these reasons, I respectfully dissent
and would reverse the trial court’s order and remand
with instructions for the trial court to deny the
Motions to Dismiss, and grant Appellants’ Motion
for Summary Judgment to the extent of striking the
deed the City issued to Beth Cronin as a result of the
invalid tax sale.
RENEE COHN JUBELIRER, Judge
President Judge Leavitt and Judge McCullough join
this dissenting opinion.
All Citations
Not Reported in Atl. Rptr., 2019 WL 5681556

A37

IN THE COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY, PENNSYLVANIA
CIVIL DIVISION
IN RE:
CITY OF PITTSBURGH
TREASURER’S SALE
OF PROPERTIES FOR
DELINQUENT TAXESOCTOBER 25, 2013,
HENRIETA PISZTORA,
MARY ALICE STURM
AND STEPHEN W.
STURM, husband and
wife, GREGORY J.
WALSH AND
MARIANNE B.
WALSH, husband and
wife, MARGARET E.
DEVLIN, and ANN M.
DEVLIN,
Plaintiffs,
CITY OF
PITTSBURGH,
Defendant,
and
BETH CRONIN,
Interested Party.

No. G.D. 14-006350
OPINION AND
ORDER OF COURT

Honorable Joseph M.
James
Copies Sent To:
David A. Wolf, Esquire
Lourdes
Sanchez
Ridge, Esquire
James E. DePasquale,
Esquire
[FILED
17 JUN-7 AM 9:33
DEPT. OF COURT
RECORDS
CIVIL DIVISION
ALLEGHENY
COUNTY]

A38

IN THE COURT OF COMMON PLEAS OF
ALLEGHENY COUNTY, PENNSYLVANIA
CIVIL DIVISION
IN RE:
CITY OF PITTSBURGH
TREASURER’S SALE
OF PROPERTIES FOR
DELINQUENT TAXESOCTOBER 25, 2013,
HENRIETA PISZTORA,
MARY ALICE STURM
AND STEPHEN W.
STURM, husband and
wife, GREGORY J.
WALSH AND
MARIANNE B.
WALSH, husband and
wife, MARGARET E.
DEVLIN, and ANN M.
DEVLIN,
Plaintiffs,
CITY OF
PITTSBURGH,
Defendant,
and
BETH CRONIN,
Interested Party.

No. G.D. 14-006350
OPINION AND
ORDER OF COURT

A39

OPINION
James, J.

June 6, 2017

This dispute concerns a parcel of land known
as Coyne Terrace which is located off of Winterburn
Avenue in the Greenfield neighborhood of the City of
Pittsburgh (“the City”). By way of history, on or
about March 24, 1930, John J. Coyne and Mary
Coyne (“the Coynes”) filed the Coyne Plan of Lots
with the City. The Coyne Plan subdivided 2.5 acres
into twenty-eight lots known as Coyne Terrace. The
lots were bisected by a 40 foot wide private street
and a 10’ x 90.53’ alley way. On August 11, 1948,
City Ordinance 334 opened a section of Coyne
Terrace as a public street. The remainder remained
a Private Street and a Private Alley Way. Sometime
prior to 1980, the Private Street and the Private
Alley Way were assigned Lot and Block No. 54-R-92.
On October 25, 2013, the Private Street and
Private Alley Way were presented for sale by the
City at a treasurer’s sale pursuant to the Second
Class City Treasurer’s Sale and Collection Act (“the
Act”). Interested Party, Beth Cronin purchased the
parcel.
On December 24, 2015, Plaintiffs Henrieta
Pisztora, Mary Alice Sturm and Stephen W. Sturm,
Gregory J. Walsh and Marianne B. Walsh, Margaret
E. Devlin and Ann M. Devlin filed a Petition for Rule
to Show Cause seeking why the October 25, 2013
treasurer’s sale should be deemed void and Ms.
Cronin’s deed be stricken. Plaintiffs own Property
within Coyne Terrace, Ms. Pisztora’s Property abuts
both the Private Street and the Private Alley Way.
The rest of the Plaintiffs own Property that is

A40

adjacent to and/or abut the Private Alley Way.
Plaintiffs claim that the City did not send them
written notice of the treasurer’s sale. They also
allege that because more than twenty-one years
elapsed without the City taking any action to
“accept” either the Private Street and/or the Private
Alley Way, they as adjacent Property owners, own
the Private Street and Private Alley Way. Plaintiffs
also allege that the Act, as a matter of law, violates
the federal due process clause under the fourteenth
amendment of the U.S. Constitution. Plaintiffs filed
a Motion for Summary Judgment on April 3, 2017.
The City filed a Motion to Dismiss on May 12, 2017
claiming that the Plaintiffs lack jurisdiction in this
case.
The City followed the correct procedure under
the Act in effectuating the treasurer’s sale. Pursuant
to the Act, the City was required to provide notice to
interested parties by mailing and posting. The Act
defines “interested party” as “[a] person who has an
interest of record in the property.” 53 P.S. § 27102.
The notice section of the act states that:
(a) System – The treasurer shall establish
a system of effecting notice to
interested parties. The procedure shall
be reasonably calculated under the
circumstances to apprise the interested
parties of the pendency of the sale and
to afford parties the opportunity to
defend their interests in the property.
(b) Service – Service of written notice
made by certified mail is complete
when the notice is mailed. If the notice
is not delivered or claimed, delivery is

A41

refused, the return receipt is not
executed or the treasurer fails to
receive information from the post office
respecting the notice before the date
fixed for sale, the validity of the service
shall not be impaired and the sale shall
proceed at the time fixed by the notice.
Information or material received by the
treasurer from the post office
respecting the notice, whether before or
after the sale, shall be included in the
treasurer’s report filed with the court
under section 305.1.
The act also requires advertisement and posting as
follows:
(a) Advertisement – The treasurer shall
advertise those properties which the
treasurer intends to sell.
The
advertisement, which shall contain
only a general description of the
property, shall be made once a week for
two successive weeks prior to the date
set for sale in a newspaper of general
circulation and in the legal newspaper
printed and published in the city.
(b) Posting – The treasurer shall also post
a notice stating that the property will
be sold at treasurer’s sale for
delinquent claims in a conspicuous
place on, in front of or contiguous to
each parcel of land advertised for sale,
at least ten days prior to the day of sale.
The posted notice shall contain the
following information: the date, time

A42

and place at which the property shall
be sold and a telephone number or
address at which the owner can obtain
additional information. Posting of
similar information shall also occur at
the offices of the treasurer.
(c) Failure – Failure to advertise or post
the property shall not set aside a sale if
the owner has received notice by other
means.
Pursuant to the Act, the City provided
property notice to all “interested parties.”
Specifically, the City routinely utilizes the
Allegheny County Assessment website, Transunion,
Whitepages/Superpages, the Allegheny County
Recorder of Deeds, the Register of Wills, and general
internet searches to notify interested parties of the
treasurer’s sale. The City served written notice to all
individuals that it could find named John Coyne and
Mary Coyne in the area. The City also advertised
and posted the treasurer’s sale as required by the
Act which would have given the Plaintiffs notice of
the treasurer’s sale. None of the Plaintiffs are
“interested party” under the Act because none of
them has proven more than a possible ownership
interest in the Private Street or Private Alley Way.
Therefore, the City’s notice was proper.
Under 53 P.S. § 27303, the Plaintiffs had 30
days from the October 25, 2013, (the date of the
treasurer’s sale) to appeal the sale of the Property.
Following the sale, the Plaintiffs had engaged legal
counsel by August 1, 2014. The Plaintiffs signed a
petition regarding the sale on November 15, 2014.
Plaintiffs Pisztora and Sturm were interviewed by

A43

Andy Sheehan of television station KDKA regarding
this matter on July 21, 2015. As stated above, the
Plaintiffs filed a Petition for Rule to Show Cause
Why the Treasurer’s Sale Should Not Be Vacated on
December 24, 2015. That Petition was filed more
than two years after the treasurer’s sale. The failure
to file a timely appeal is a jurisdictional defect.
Falcon Oil Co., Inc. v. Dept. of Env. Res., 609 A.2d
876, 878 (Pa. Cmwlth 1992). There is no explanation
on the record as to why Plaintiffs waited more than
two years to take any steps to set aside this sale. As
of this date, no appeal nunc pro tunc of this sale has
been filed.
The sale is valid and final. Any claims under
the Private Road Act were extinguished by the sale.
These claims could have been raised at the time of
the sale or in a timely appeal. Raising them now is
untimely.
Finally, the Plaintiffs claim that the notice
provisions of the Second Class City Treasurer’s Sale
and Collection Act violates the due process clause of
the Fourteenth Amendment. The Act provides
detailed steps to be followed to effectuate service.
The fact that these Plaintiffs claim that they failed
to see the postings or the advertising doesn’t make
the Act unconstitutional.
Based upon the foregoing, the Plaintiffs’ case
is dismissed. The City complied with the Act and
properly provided notice of the treasurer’s sale. Ms.
Cronin’s purchase of the Property is valid. Plaintiffs
failed to timely appeal the sale.

A44

2013,
HENRIETA PISZTORA,
MARY ALICE STURM
AND STEPHEN W.
STURM, husband and
wife, GREGORY J.
WALSH AND
MARIANNE B.
WALSH, husband and
wife, MARGARET E.
DEVLIN, and ANN M.
DEVLIN,
Plaintiffs,
CITY OF
PITTSBURGH,

[FILED
17 JUN-7 AM 9:33
DEPT. OF COURT
RECORDS
CIVIL/FAMILY
DIVISION
ALLEGHENY
COUNTY]

Defendant,
and
BETH CRONIN,
Interested Party.
ORDER OF COURT

AND NOW, this 7th day of June 2017, based
upon the foregoing, the Plaintiffs’ case is dismissed.
By the Court,
/s/ Joseph M. James J.

A45

IN THE SUPREME COURT OF
PENNSYLVANIA
WESTERN DISTRICT
_______________________
No. 413 WAL 2019
________________________
In re: CITY OF PITTSBURGH TREASURER’S
SALE OF PROPERTIES FOR DELINQUENT
TAXES - October 25, 2013 Henrieta Pisztora, Mary
Alice Sturm And Stephen W. Sturm, Husband and
Wife, Gregory J. Walsh and Marianne B. Walsh
v.
CITY OF PITTSBURGH and BETH CRONIN
________________________
Petition of: Henrieta Pisztora, Mary Alice Sturm,
Stephen W. Sturm, Gregory J. Walsh and
Marianne B. Walsh
________________________
Petition for Allowance of Appeal from the Order of
the Commonwealth Court

A46

ORDER
PER CURIAM
AND NOW, this 14th day of April, 2020, the
Petition for Allowance of Appeal is DENIED.’

A True Copy Patricia Nicola
As of 04/14/2020
Attest: s/ Patricia Nicola
Chief Clerk
Supreme Court of Pennsylvania

